        Mem
          morandum from
                      m the Office of th
                                       he Inspector Ge
                                                     eneral



        Aprril 6, 2011

        Kim
          mberly S. Grreene, WT 7B-K

         EQUEST FOR FINAL AC
        RE                 CTION – AUDIT 2010-13
                                               3284 – DIST
                                                         TRIBUTOR A
                                                                  AUDIT OF
        FLO
          ORENCE EL
                  LECTRICITY
                           Y DEPARTM MENT



        Atta
           ached is the
                      e subject fina
                                   al report for your
                                                 y     review and action. Your written commentss,
        which addresse ed your man nagement de   ecision and a
                                                             actions plannned or taken
                                                                                     n, have been
                                                                                                n
        included in the report. Plea
                                   ase notify us s when final action is complete.

        Info
           ormation con
                      ntained in th
                                  his report ma ay be subjecct to public disclosure. P
                                                                                     Please advisse us
        of any
           a sensitivee informationn in this repo
                                                ort that you rrecommend be withheld  d.

        If you
           y have any  y questions, or wish to discuss
                                                d                         ase contact me or Richa
                                                        our ffindings, plea                     ard C.
        Underwood, Ac  cting Directo            or Audits, at (423) 785-4824. We ap
                                   or, Distributo                                   ppreciate the
                                                                                                e
        couurtesy and cooperation received
                                   r             m your staff during the a
                                              from                        audit.




(for)   Robert E. Martin
        Ass
          sistant Inspe
                      ector Genera
                                 al
         (A
          Audits and Inspections)
        ET 3C-K

        RC
         CU:HAC
        Atta
           achment
        cc (Attachmentt):
              Steve Byone, WT 4B   B-K
              Michael B.
                       B Fussell, WT
                                   W 9B-K
              Peyton T. Hairston, Jr.,
                                    J WT 7B-K  K
              Tom Kilgoore, WT 7B--K
              Richard W.
                       W Moore, ET E 4C-K
              Robert A. Morris, WT  T 7C-K
              Emily J. Reynolds,
                       R           OCP
                                   O     1L-NST
              Stephen B. Summers     s, WT 4B-K
              John M. Thomas
                       T        III, MR
                                     M 6D-C
              John G. Trawick,
                       T        WT  T 3D-K
              Robert B.. Wells, WT 9B-K
              OIG File No. 2010-13  3284
 


        
 


                                 Audit Report
 
Office
      of the Inspector General                                

                                 To the Group President,
                                 Strategy and External  
                                 Relations 
                                                              

 

 

 

 

 
DISTRIBUTOR AUDIT OF
 

FLORENCE
 



ELECTRICITY
DEPARTMENT
 




 

 
 
 

 
Audit Team                                 Audit 2010-13284
Richard C. Underwood                            April 6, 2011 
Jessica L. Monroe
Stephanie L. Simmons
Office of the Inspector General                              Audit Report




ACRONYMS AND ABBREVIATIONS
FY                         Fiscal Year
kW                         Kilowatt
kWh                        Kilowatt Hour
MW                         Megawatt
OIG                        Office of the Inspector General
TVA                        Tennessee Valley Authority




Audit 2010-13284
Office of the Inspector General                                                                       Audit Report




TABLE OF CONTENTS
EXECUTIVE SUMMARY ................................................................................ i

BACKGROUND................................................................................................ 1

FINDINGS ......................................................................................................... 2
   PROPER REPORTING OF ELECTRIC SALES AND
   NONDISCRIMINATION IN PROVIDING POWER TO
   CUSTOMERS................................................................................................... 2

   USE OF ELECTRIC SYSTEM REVENUES ..................................................... 4

   CONTRACT COMPLIANCE ISSUE ................................................................. 5

   DISTRIBUTOR INTERNAL CONTROL ISSUE ................................................ 6

   TVA OVERSIGHT OPPORTUNITIES .............................................................. 6

RECOMMENDATIONS .................................................................................. 7


APPENDICES

A. OBJECTIVE, SCOPE, AND METHODOLOGY

B. LETTER DATED MARCH 25, 2011, FROM VANCE YOUNG TO ROBERT E.
   MARTIN

C. MEMORANDUM DATED MARCH 30, 2011, FROM JOHN G. TRAWICK TO
   ROBERT E. MARTIN




Audit 2010-13284
               Audit
               A     200
                       09-12594 – Florenc
                                        ce Electriicity Depa
                                                           artment
                                    EXE
                                      ECUTIVE S
                                              SUMMAR
                                                   RY

Why
  y the OIG Did
            D This Au
                    udit

  As
  A part of ourr annual aud  dit plan, we audited
                                          a       Flore
                                                      ence Electriccity Departm  ment’s
  co
   ompliance with
               w the powe    er contract between
                                          b        the Tennessee Valley Auth     hority (TVA) and
  th
   he City of Flo
                orence. Florrence, a TVA  A power disttributor base ed in Florencce, Alabama a,
  had revenue from electric  c sales of ab
                                         bout $116 m illion in fiscaal year (FY) 2009. In
                e Electricity Departmentt, Florence a
  addition to the                                     also operate es water, wasste water, annd
  gas departme  ents and proovides billing
                                         g services fo r these utilitiies and othe
                                                                                 er municipalities.
  The
  T objective  e of our auditt was to deteermine comp pliance with key provisio  ons of the po
                                                                                             ower
  co
   ontract betwween TVA an   nd Florence.

Wha
  at the OIG Found
             F

  Our
  O audit of Florence
                 F          fou
                              und improvem ments were needed in thhe areas of (1) customer
  cllassification,, (2) metering, (3) contra
                                           act complian
                                                      nce, and (4) distributor in
                                                                                nternal contrrols
  as follows:
     Custome er Classifica ation – 26 ou
                                        ut of 460 (5.7
                                                     7 percent) ccustomer acccounts we
      selected for
               f further re eview were not
                                        n classified d correctly. A Although the
                                                                               e monetary
      impact of the misclassifications would
                                       w       not be significant tto Florence o
                                                                               or TVA, the
      misclassiffications cou
                            uld impact (1                        of electric sales and/or
                                        1) the properr reporting o
      (2) nondis
               scrimination in providingg power to cuustomers. F Florence reclassified thee
      26 custom
              mers during the audit.
     Metering – We noted  d 44 customeer accounts self-reportin
                                                               ng their enerrgy usage to
                                                                                       o
      Florence. Of these 44, the meterrs had not beeen read forr 27 accountts within
      365 days of the date that the data
                                       a was extraccted from the
                                                               e billing systtem, and
      4 accountts did not ha
                           ave a meter read date re
                                                  ecorded in thhe billing sysstem.
     Contract Complianc  ce – Florence  e did not alw
                                                     ways meet T  TVA’s powerr contract
      requireme
              ents for obta
                          aining contra acts for custo
                                                     omers as req  quired by the
                                                                               e GSA rate
      schedule.. Specifically, 3 of 14 (a
                                        about 21 perccent) custom mer accounts with dema  and in
      excess off one megawwatt during th he audit periiod did not h
                                                                  have a contract on file w
                                                                                          with
      Florence.
     Distributor Internal Controls
                           C         – We
                                       W noted a control imprrovement Floorence agre
                                                                                   eed to
      implemen            se to the FY 2009 SAS 7
              nt in respons                     70 report hadd not been implementedd.

   n addition, we
  In           w found Florrence had enough cash on hand at June 30, 20      009, to coverr
  actual FY 201 10 capital exxpenditures and providee a cash reseerve equivale ent to a cash
   atio of aboutt 8 percent, which
  ra                         w     is with
                                         hin TVA’s esstablished gu
                                                                 uidelines forr an adequatte
  ca
   ash ratio of 5 to 8 percent.




                                                                                             P
                                                                                             Page i
                Audit
                A     200
                        09-12594 – Florenc
                                         ce Electriicity Depa
                                                            artment
                                     EXE
                                       ECUTIVE S
                                               SUMMAR
                                                    RY

   Finally, we fo
                ound two opp portunities to
                                          o enhance T  TVA’s oversigght of the disstributors that
   have been re eported in preevious OIG (Office of the e Inspector General) disstributor aud dits.
   TVA
   T    is in the process of addressing
                              a           these
                                          t      finding
                                                       gs, which incclude (1) pro
                                                                                oviding defin nitive
   guidance for distributors on
                              o what con  nstitutes pruddent expendditures and (2) updating joint
    ost allocations in the tim
   co                        me period reccommended    d by the TVA
                                                                  A Accountantts’ Referencce
   Manual.
   M

Wha
  at the OIG Recommen
             R      nds

   We
   W recomme   end the Grou
                          up Presidentt, Strategy a nd External Relations, w work with
   Florence to (1
                1) implemen
                          nt controls to
                                       o prevent cla
                                                   assification isssues from rrecurring,
    2) improve compliance
   (2          c          with
                          w contractt provisions related to cu   ustomer contracts, and
   (3
    3) implement agreed-upon control immprovementts from the F  FY 2009 SAS  S 70 report.

Management’s
           s Commentts
   Florence and TVA manag    gement agre  eed with our recommend dations and have taken or
   are taking acttions to addrress the reco
                                          ommendatio ons. The tarrget complettion date for all
    orrective acttions is Septtember 2012
   co                                     2. See Appeendix B for F
                                                                 Florence’s co
                                                                             omplete
   re
    esponse and d Appendix C for TVA’s complete re sponse.

Audiitor’s Resp
              ponse
   The
   T OIG conc    curs with ac
                            ctions taken and
                                         a planned
                                                 d by Florencce and TVA tto correct the
                                                                                      e
   id
    dentified issu
                 ues.




                                                                                              P
                                                                                              Page ii
Office of the Inspector General                                                                   Audit Report


BACKGROUND
The Florence Electricity Department1 is a distributor for Tennessee Valley
Authority (TVA) power based in Florence, Alabama, with revenues from electric
sales of approximately $116 million in fiscal year (FY) 2009. TVA relies on
distributors to self-report customer usage and subsequently the amount owed to
TVA (Schedule 1). Customers are generally classified as residential, commercial,
manufacturing, and lighting. Within these classes are various rate classifications
based on the customer type and usage. Table 1 shows the customer mix for
Florence as of June 2009.

                          Florence’s Customer Mix as of June 2009
                                                Number of                                    Kilowatt
        Customer Classification                                         Revenue
                                                Customers                                   Hours Sold
    Residential                                          39,535           $62,096,112          651,210,607

    General Power – 50 Kilowatts (kW)
                                                          6,719            11,476,260          103,868,296
    and Under (Commercial)
    General Power – Over 50 kW
                                                            731            40,145,131          443,474,770
    (Commercial or Manufacturing)

    Street and Athletic                                     115              1,492,204            7,682,272

    Outdoor Lighting2                                       320                674,164            4,892,569

     Total                                               47,420          $115,883,871        1,211,128,514
                                                                                                      Table 1

The distributors are required to establish control processes over customer setup,
rate application, and measurement of usage to ensure accurate and complete
reporting to TVA. Florence uses Daffron Consumer Information Systems software
applications for its end-use billing and invoice processing. This system generates
various reports that provide management with an understanding of the transactions
that occur within the normal course of business. All other accounting and finance
responsibilities are handled by Florence, which has a Mayor and City Council
providing oversight and a manager and accountant managing the daily activities.
In addition to the Electricity Department, Florence also operates water, waste
water, and gas departments and provides billing services for these utilities and
other municipalities (i.e., the sanitation departments of Lauderdale County and the
Town of Lexington as well as the West Lauderdale Water Authority).



1
     The wholesale power contract is between the “City of Florence, Alabama,” and TVA. We will use
     “Florence” rather than the “City of Florence, Alabama,” in this report.
2
     The “Number of Customers” represents those customers who only have Outdoor Lighting accounts with
     Florence at June 30, 2009. In addition, another 5,135 customers had Outdoor Lighting accounts as well
     as accounts for other services with Florence. The totals for “Revenue” and “Kilowatt Hours Sold” include
     both categories of Outdoor Lighting customers.
Audit 2010-13284                                                                                       Page 1
Office of the Inspector General                                                                   Audit Report


FINDINGS
Our audit of Florence found issues involving customer classification and
metering that could impact (1) the proper reporting of electric sales and/or
(2) nondiscrimination in providing power to customers of the same rate class. In
addition, we found Florence had enough cash on hand at June 30, 2009, to cover
actual FY 2010 capital expenditures and provide a cash reserve equivalent to a
cash ratio of about 8 percent, which is within TVA’s established guidelines for an
adequate cash ratio of 5 to 8 percent.

We also found improvements were needed to comply with contract provisions
related to obtaining customer contracts as required by the GSA rate schedule. In
addition, we identified an opportunity to strengthen Florence’s internal controls
that had been identified in the FY 2009 SAS 70 report but not yet implemented.
Finally, we found certain opportunities to enhance TVA’s oversight of the
distributors that have been reported in previous distributor reports.

PROPER REPORTING OF ELECTRIC SALES AND
NONDISCRIMINATION IN PROVIDING POWER TO CUSTOMERS
As discussed below, we identified a customer classification issue and a metering
issue that could impact (1) the proper reporting of electric sales and/or (2) the
ability to ensure nondiscrimination in providing power to members of the same
rate class.3 Although the monetary effect of the classification issue on Florence
and TVA would not be significant, correcting classification and metering issues is
important to ensure all customers are placed in the correct rate classification and
charged the same rate as other customers with similar circumstances.

Customer Classification Issue
We noted 460 customer accounts that appeared to be improperly classified based
on customer name and/or the existence of multiple accounts at the same address.
At our request, Florence reviewed these accounts and determined 26 accounts
were improperly classified. The 26 customer accounts were classified as
Residential Rate – Schedule RS,4 although they should have been classified




3
    Section 5 Resale Rates subsection (a) of the power contract between TVA and the distributor states that
    “power purchased hereunder shall be sold and distributed to the ultimate consumer without discrimination
    among consumers of the same class and that no discriminatory rate, rebate, or other special concession
    will be made or given to any consumer, directly or indirectly.”
4
    Under the Residential Rate – Schedule RS, customers are classified based on the following requirement:
    “This rate shall apply only to electric service to a single-family dwelling (including its appurtenances if
    served through the same meter), where the major use of electricity is for domestic purposes, such as
    lighting, household appliances, and the personal comfort and convenience of those residing herein.”
Audit 2010-13284                                                                                        Page 2
Office of the Inspector General                                                                      Audit Report


under the General Power Rate – Schedule GSA.5 The GSA schedule is divided
into three parts—Part 1, Part 2, and Part 3—based on electric usage and
demand.6 The monetary impact of the misclassifications would not be significant
to Florence or TVA. Florence personnel reclassified the 26 customers from
residential to commercial (GSA schedule) in October 2010.

Metering Issue
During discussions with Florence personnel, we noted 44 accounts that were self-
reporting their usage to Florence. At our request, Florence management provided
us with data from the billing system as of October 21, 2010, showing the last date
Florence personnel read the meter for the 44 customer accounts self-reporting
usage. Our review of this billing system data noted (1) 4 accounts with no meter
reading date, (2) 27 accounts whose last read date was more than 365 days prior
to the date the data was extracted from the billing system, and (3) 13 accounts
whose last read date was 365 days or less from the date the data was extracted.

Florence management indicated the self-reporting customers were good
customers. Therefore, Florence management did not feel a sense of urgency to
keep actual meter readings documented. As a result of our audit, Florence
management implemented a program to make an appointment to visit and replace
the customers’ current meter with a meter that can be read remotely. Florence
management stated that as of January 26, 2011, all but 12 of the self-reporting
customers’ meters had been replaced with meters that can be read remotely.
Florence plans to send out a second request to the 12 remaining customers to
make appointments to install meters that can be read remotely. We concur with
the actions taken and planned by Florence management.



5
    Under the General Power Rate – Schedule GSA, customers are classified based on the following
    requirements:
     GSA Part 1 – If (a) the higher of (i) the customer’s currently effective contract demand, if any, or (ii) its
        highest billing demand during the latest 12-month period is not more than 50 kW and (b) customer’s
        monthly energy takings for any month during such period do not exceed 15,000 kilowatt hours (kWh).
     GSA Part 2 – If (a) the higher of (i) the customer’s currently effective contract demand or (ii) its highest
        billing demand during the latest 12-month period is greater than 50 kW but not more than 1,000 kW or
        (b) the customer’s billing demand is less than 50 kW and its energy takings for any month during such
        period exceed 15,000 kWh.
     GSA Part 3 – If the higher of (a) the customer’s currently effective contract demand or (b) its highest
        billing demand during the latest 12-month period is greater than 1,000 kW.
6
    Demand is a measure of the rate at which energy is consumed. The demand an electric company must
    supply varies with the time of day, day of the week, and the time of year. Peak demand seldom occurs for
    more than a few hours or fractions of hours each month or year, but electric companies must maintain
    sufficient generating and transmission capacity to supply the peak demand. Demand charges represent
    the high costs electric companies pay for generating and transmission capacity that sits idle most of the
    time. Demand charges are based on the amount of energy consumed in a specified period of time known
    as a demand interval. Demand intervals are usually 15 or 30 minutes. (Engineering Tech Tips,
    December 2000, Dave Dieziger, Project Leader, United States Department of Agriculture Forest Service,
    Technology & Development Program, http://www.fs.fed.us/eng/pubs/htmlpubs/htm00712373/index.htm.)
    For TVA distributors, the commercial and manufacturer Schedules of Rates and Charges direct that
    metered demand be calculated as “the highest average during any 30-consecutive-minute period of the
    month of the load metered in kW.”
Audit 2010-13284                                                                                           Page 3
Office of the Inspector General                                                                      Audit Report


USE OF ELECTRIC SYSTEM REVENUES
Under the TVA power contract, approved uses of revenues from electric system
operations, including any surplus, are (1) operating expenses, (2) debt service,
(3) tax equivalent payments, and (4) reasonable reserves for renewals,
replacements, and contingencies. As discussed on the following page, we noted
Florence had enough cash on hand at June 30, 2009, to cover actual FY 2010
capital projects and provide a cash reserve equivalent to a cash ratio of about
8 percent, which is within TVA’s established guidelines for an adequate cash ratio
of 5 to 8 percent.7

As of June 30, 2009, Florence reported about $5.8 million in its cash and cash
equivalent accounts. Florence management provided the actual FY 2010 capital
expenditures as shown in Table 2 below.

                      Florence’s FY 2010 Actual Capital Expenditures

                       Actual Capital Expenditures                                              Cost
Station Equipment                                                                                      $283,798
Poles, Towers, and Fixtures                                                                              617,836
Overhead Conductors and Devices                                                                           14,788
Underground Conduit                                                                                      104,545
Underground Conductors and Devices                                                                       949,182
Line Transformers                                                                                                272
Services                                                                                                 107,673
Meters                                                                                                    72,992
Installations on Customers’ Premises                                                                      59,246
Street Lighting and Signal Systems                                                                        72,547
Land and Land Rights                                                                                      41,768
Structures and Improvements                                                                              132,962
Office Furniture and Equipment                                                                            52,481
General Plant Equipment                                                                                  598,910
    Total Actual Capital Expenditures                                                                $3,109,000
                                                                                                         Table 2

When compared to Florence’s actual capital expenditures for FY 2010, the
balance in Florence’s cash accounts at June 30, 2009, was enough to pay for
these items and leave about $2.7 million as a reserve.

When performing rate reviews, TVA calculates the cash ratio (footnote 7). Values
in the cash ratio formula’s denominator include purchased power cost. Because

7
    TVA reviews the cash ratios of distributors as part of its regulatory rate review function. Cash ratio is
    calculated as follows:                              Cash + Cash Equivalents                              s
                           Total Variable Expenses (Operations and Maintenance + Purchased Power)
Audit 2010-13284                                                                                           Page 4
Office of the Inspector General                                                                   Audit Report


the balance in the TVA Power Invoice Prepayment Account is used to pay TVA for
the distributor’s purchased power, we included the Prepayment balance in our
calculation of the cash ratio in Table 3. At June 30, 2009, the balance in the
Prepayment account was $6,248,500.

Table 3 shows Florence’s cash ratio percentage, including this Prepayment
account balance, was 11 percent before accounting for actual FY 2010 capital
expenditures and about 8 percent after accounting for them.

       Florence’s Cash Accounts Compared to Actual Capital Expenditures
                               Cash and Cash
                                                            Actual Capital        Reserve After Actual
                              Equivalents Plus
                                                            Expenditures          Capital Expenditures
                            Prepayment Account
FY 2009                                    $ 12,027,595           $3,109,000                      $8,918,595
Cash Ratio                                       11.00%                                                 8.15%
                                                                                                       Table 3

According to TVA records, over the past five years, Florence was approved for a
rate increase in 2008. Table 4 shows the rate increase received by Florence and
the cash position and cash ratio at June 30 prior to the effective date of the rate
change.

               Florence’s Rate Increases, Cash Position, and Cash Ratio
                              Cash and Cash Equivalents as
      Cash on Hand                                                                Rate Increase8
                                 Reported and Cash Ratio
    Equivalent to an 8%
                              With Prepay   Without Prepay             Change in                  Effective
        Cash Ratio                                                               Percent
                               Balance         Balance                 Revenue                      Date
                               $10,150,939          $3,997,217
         $7,548,723                                                    $3,031,194      3.21%     10/01/2008
                               CR = 10.76%          CR = 4.24%
                                                                                                       Table 4

Discussions with Florence management indicated their operating philosophy has
historically been to issue debt. However, Florence management stated that they
have recently tried to pay for capital additions out of retained earnings.

CONTRACT COMPLIANCE ISSUE
We noted one area where Florence was not meeting the power contract
requirements with TVA. Specifically, we found Florence was not obtaining
contracts for customers as required by the GSA rate schedule. The GSA
schedule from TVA requires all customers who exceed 50 kW per month to sign a
formal contract. However, TVA management, in response to previous reports,
indicated the threshold of 50 kW for requiring customer contracts is too low.

8
     This is the rate increase enacted by the distributor. This increase does not include any rate increases or
     decreases made by TVA, including fuel cost adjustments, which were passed through by the distributor to
     the customer.
Audit 2010-13284                                                                                        Page 5
Office of the Inspector General                                                                   Audit Report


Accordingly, TVA management recommended to the TVA Board that a higher
threshold be established as part of the rate change process with distributors.9 On
February 2, 2011, TVA sent a letter to the distributors noting the contract
requirement threshold in the default GSA resale rate schedules would be changed
from 50 kW to 1 MW (megawatt).

We noted 3 of 14 (or approximately 21 percent) customers with demand in excess
of 1 MW during the audit period did not have a contract on file with Florence. The
contract demand10 amount in the billing system is used to calculate both the
monthly demand charge and the minimum bill amount.

DISTRIBUTOR INTERNAL CONTROL ISSUE

We found Florence’s internal controls could be strengthened in the area of billing
system monitoring. We noted that a control improvement Florence agreed to
perform in response to the FY 2009 SAS 70 report had not been implemented.

Issue Identified in the SAS 70 Report
The FY 2009 SAS 70 report recommended Florence run and review a report on
nonmetered services to improve controls over the end-use billing process.
Florence responded in the SAS 70 that it would review current nonmetered
services to the extent documentation was available.

We found Florence has not been regularly running or reviewing a report on
nonmetered services even though it was able to run such a report from the
Daffron billing system at our request.

TVA OVERSIGHT OPPORTUNITIES
We found two opportunities to enhance TVA’s oversight of the distributors that
have been reported in previous distributor reports. Specifically, we noted TVA
has not:

     Provided definitive guidance for distributors on what constitutes prudent
      expenditures.
     Performed a joint cost study since 1986 although the TVA Accountants’
      Reference Manual calls for one to be performed every three to four years or
      when major changes occur that affect joint operations.




9
     When the rate change is put into effect, all retail customers above the new threshold will be expected to
     have executed contracts. Target completion date will coincide with the rate change efforts that are
     currently under way with the distributors and is expected to be in place by April 2011.
10
     A customer’s contract demand is the amount of power a customer agrees to pay to have available at all
     times. Because this refers to power that must be made available, as opposed to energy that can actually
     be consumed, contract demand is measured in kW, not kWh.
Audit 2010-13284                                                                                        Page 6
Office of the Inspector General                                             Audit Report


In response to the previous reports, TVA agreed to take corrective actions on
these issues. Full discussion of these issues and TVA’s planned actions can be
found in prior Office of the Inspector General (OIG) distributor reports on our Web
site, www.oig.tva.gov.


RECOMMENDATIONS
We recommend the Group President, Strategy and External Relations, work with
Florence to improve compliance with the contract and/or strengthen internal
controls. Specifically, Florence should:

1. Implement controls to assist in identifying accounts that need to be reclassified
   and prevent classification issues from recurring.

    Florence's Response – Florence agreed with the need to have accounts
    properly classified and stated it feels it does a good job in this area. Florence
    feels a major cause of the misclassifications found was due to repurposing of
    the property by existing customers without notifying Florence. Florence is
    exploring methods of reviewing existing accounts to determine proper
    classification with a reasonable effort, commensurate with risk. The target
    completion date for this is March 2012. See Appendix B for Florence’s
    complete response.

    TVA Management’s Comments – TVA agreed that the Power Contract
    requires consistent classification of customers in accordance with the
    provisions of the applicable rate schedule. The target completion date for this
    is March 2012. See Appendix C for TVA’s complete response.

    Auditor’s Response – The OIG concurs with the planned actions.

2. Obtain contracts for all customers with actual or contract demand in excess of
   1 MW.

    Florence's Response – Florence agreed with the need to obtain power
    contracts for those customers whose service requires them, and the three
    customer accounts identified in the finding with demand in excess of 1 MW
    now have a contract.

    Florence stated it will obtain signed contracts as required in its Rate Schedule
    going forward and is obtaining contracts as required on new services.
    Florence will review its files to determine which customers will be required to
    furnish a signed contract and anticipates obtaining contracts required on
    existing services by September 2012 or earlier. See Appendix B for
    Florence’s complete response.



Audit 2010-13284                                                                 Page 7
Office of the Inspector General                                            Audit Report


    TVA Management’s Comments – TVA management agreed that the
    Distributor should obtain contracts with customers in accordance with the
    Distributor’s rate schedule requirements regarding written contracts. The
    Distributor will work to obtain signed contracts with all customers to comply with
    the requirements of their rate schedule requirements regarding written
    contracts. The target completion date for this is March 2012. See Appendix C
    for TVA’s complete response.

    Auditor’s Response – The OIG concurs with the actions taken and planned.

3. Implement the review of nonmetered services report(s) agreed to in the
    response to the FY 2009 SAS 70 report.

    Florence's Response – Florence agreed with the need to ensure the billings
    for nonmetered services are correct. Florence is revising the nonmetered
    services report and refining its procedures for the monthly review. The
    existing report for February 2011 has been reviewed, and Florence will
    continue to review the report monthly. See Appendix B for Florence’s
    complete response.

    TVA Management’s Comments – TVA management agreed and recommends
    that Florence should generate and review reports on the billing of nonmetered
    services. The target completion date for this is June 2011. See Appendix C for
    TVA’s complete response.

    Auditor’s Response – The OIG concurs with the actions taken and planned.




Audit 2010-13284                                                                Page 8
                                                                        APPENDIX A
                                                                         Page 1 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY
This audit of Florence Electric Department was initiated as a part of our annual
workplan. The objective was to determine compliance with key provisions of the
power contract between TVA and Florence including:

   Proper reporting of electric sales by customer class to facilitate proper
    revenue recognition and billing by TVA.
   Nondiscrimination in providing power to members of the same rate class.
   Use of revenues, including any surplus, for approved purposes, such as:
     Operating expenses
     Debt service
     Tax equivalent payments
     Reasonable reserves for renewals, replacements, and contingencies

To achieve our objective, we:

   Obtained electronic billing data for the audit period. To validate the reliability
    of the billing data, we compared the data to the information reported to TVA
    on the Schedule 1. No significant differences were noted; therefore, the data
    was deemed reliable.
   Performed queries on data to identify classification, metering, and contract
    compliance issues. We reviewed results of the queries and selected
    accounts using nonstatistical sampling for further analysis and follow-up to
    determine whether misclassification, metering issues, or noncompliance with
    contract requirements occurred. Since nonstatistical sampling was used,
    projection of the results was not appropriate.
   Limited our work on internal controls to those control deficiencies identified as
    contributing to noted instances of noncompliance with the power contract
    and/or the TVA Act.
   Determined through inquiry and review of documentation whether Florence
    had any nonelectric, system-related business interests supported by electric
    system funds.
   Obtained disbursements listing for the audit period. We reviewed and
    analyzed disbursements to identify instances where electric system funds
    may have been used for purposes not allowed under the TVA power contract.
    We used nonstatistical sampling to select questionable disbursements for
    further analysis and follow-up. Since nonstatistical sampling was used,
    projection of the results was not appropriate.
   Reviewed cash and cash equivalents in relation to actual capital expenditures
    and other business uses of cash.
                                                                     APPENDIX A
                                                                      Page 2 of 2

OBJECTIVE, SCOPE, AND METHODOLOGY (cont.)
When evaluating results of our audit work, we used both qualitative and
quantitative factors when considering the significance of an item. For the
purposes of this audit, the quantitative factor considered in determining an item’s
significance is whether the item exceeds 3 percent of the average annual
purchased power from TVA for the audit period. For this audit, the amount was
$2,676,449. Also for the purposes of this audit, we considered any errors
identified as systemic or intentional as significant.

The scope of the audit was for the period July 2007 through June 2009.
Fieldwork was conducted October 2010 through November 2010 and included a
site visit to Florence’s offices in Florence, Alabama. This performance audit was
conducted in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on
our audit objectives.
APPENDDIX B
 Page 1 of 2
APPENDDIX B
 Page 2 of 2
APPENDDIX C
 Page 1 of 2
APPENDDIX C
 Page 2 of 2
